   October 3, 2005




Acquisition
Audit of the Common Submarine
Radio Room
(D-2006-001)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ACAT                  Acquisition Category
CJCSI                 Chairman of the Joint Chiefs of Staff Instruction
CSRR                  Common Submarine Radio Room
ISP                   Information Support Plan
JROCM                 Joint Requirements Oversight Council Memorandum
KPP                   Key Performance Parameter
LRIP                  Low-Rate Initial Production
TEMP                  Test and Evaluation Master Plan
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                        October 3,2005
MEMORANDUM FOR NAVAL INSPECTOR GENERAL
SLBJECT: Audit of the Common Submarine Radio Room (Report No. D-2006-001)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, we request that the Program Manager, Common Submarine Radio Room
reconsider his position on Recommendation A. and comment on the final report by
November 2,2005.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudATM@dodig.osd.mil. Copies of the management comments
must contain the actual signature of the authorizing official. We cannot accept the
1 Signed 1 symbol in place of the actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Rodney D. Britt at (703) 604-9096 (DSN 664-9096) or Mr. John E. Meling at
(703) 604-9091 (DSN 664-9091). See Appendix E for the report distribution. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:



                                           Mary L. ugohe         u
                                    Assistant Ins~ectorGeneral
                              Acquisition and ~ e d m o l Management
                                                          o~~
          Office of the Inspector General of the Department of Defense
Report No. D-2006-001                                                     October 3, 2005
   (Project No. D2004AE-0222.000)

                Audit of the Common Submarine Radio Room

                                    Executive Summary

Who Should Read This Report and Why? Civil Service and military personnel
involved in the management, support, and acquisition of the Common Submarine Radio
Room (CSRR) should read this report because it discusses testing, information assurance,
and cost estimating issues that must be addressed before the CSRR Program progresses
further through the acquisition process. Additionally, acquisition officials responsible for
overseeing programs should also read this report.
Background. Navy commanders rely on the fleet’s submarine radio rooms to send and
receive strategic and tactical command and control information, including messages to
and from the National Command Authority. In a February 1995 mission need statement,
the Navy identified the need for an updated, integrated exterior communications system,
or radio room, on all submarine classes to support missions in the areas of command and
control, intelligence, and logistics.

In March 1998, the Naval Sea Systems Command awarded a contract to General
Dynamics, Electric Boat Division, Groton, Connecticut, for the new construction of
Virginia- and Sea Wolf-classes that included an upgraded radio room design that the
CSRR Program is now using.

In November 2001, the Program Executive Officer, Command, Control,
Communications, Computers and Intelligence and Space, Space and Naval Warfare
Systems Command approved the CSRR, an acquisition category III program, as an
upgrade to the Ohio- and Los Angeles-classes of submarines.
The CSRR will provide secure, reliable, and covert communications for all submarine
classes by integrating communication system components that are being developed for
other Navy acquisition programs, as well as the Global Broadcast Service component
being developed by the Air Force. As of April 2005, the development contract for the
CSRR Program totaled $9.5 million. Throughout its life cycle, the CSRR Program is
estimated to cost $1.43 billion: $152 million in research, development, test and
evaluation funds; $624 million in operations and maintenance funds; and $657 million in
procurement funds to develop, procure, and maintain the 67 radio rooms that the Navy
plans to use for operations, testing, and training.

Results. The program manager did not schedule an operational assessment of the CSRR
on the Ohio-class before the low-rate initial production decision review in June 2005. As
a result, the program manager was not able to inform the milestone decision authority of
its potential operational effectiveness and suitability. An operational assessment of the
CSRR on the Ohio-class would have provided the milestone decision authority with test
information needed to make an informed decision on whether to further invest in the
CSRR Program technology at the low-rate initial production decision review (finding A).
The program manager also did not complete a revised information support plan and its
requirements for the CSRR Program before the low-rate initial production decision in
June 2005. As a result, the program manager was not able to inform the milestone
decision authority of progress toward satisfying the information support requirements for
the CSRR. Approval of a revised information support plan will provide the milestone
decision authority with better assurance that the CSRR Program is ready for further
low-rate initial production (finding B).

The program manager did not timely determine the effect that delays in receiving
approval of the test and evaluation master plan or the decision to support spiral
development through 2024 had on the CSRR life-cycle costs. As a result, the program
manager did not provide the milestone decision authority and the Navy resource sponsor
with cost information that they needed to assess the magnitude of program costs and
make timely decisions concerning the CSRR Program’s budget. The Program Executive
Officer revised the cost-estimating policy and the program manager tasked the support
contractor with monitoring and updating the CSRR Program’s life-cycle cost estimate in
compliance with the policy. Therefore we are not making a recommendation to
accompany this finding (finding C).

Management Comments. The Deputy Assistant Secretary of the Navy (Command,
Control, Communications, Computers, Intelligence and Space), Office of the Assistant
Secretary of the Navy, Research, Development and Acquisition and the Program
Manager, Common Submarine Radio Room responded. Although the Deputy Assistant
Secretary did not agree that an operational assessment was required before the next low-
rate initial production decision, the program manager stated that the milestone decision
authority did require the completion of a 60-day development test on the Sea Wolf-class
before additional CSRR sets would be purchased for the Ohio-class submarines. The
program manager also stated that the FY 2006 low-rate initial production sets will be
procured to permit an orderly increase in the system production rate towards full-rate
production. The program manager concurred with the recommendations to submit the
information support plan to the Joint Staff, J-6 for review and approval and to prepare an
overarching CSRR Information Support Plan for all submarine classes. In addition to the
corrective actions cited in the draft report, the program manager stated that he scheduled
an independent cost estimate for the CSRR Program to adequately define and
independently verify all costs before the FY 2006 program review.

Audit Response. The Navy’s plan to conduct a 60-day test of the CSRR on the Sea
Wolf-class submarine will meet the intent of the recommendation if the program manager
requests the Commander, Operational Test and Evaluation Force to participate in the
tests and report to the milestone decision authority on the potential for the CSRR
Program to operate effectively and suitably before the FY 2006 low-rate initial
production program review. Accordingly, we request that the Program Manager,
Common Submarine Radio Room comment on that issue in response to the final report
by November 2, 2005.




                                            ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    3

Managers’ Internal Control Program                                            4

Findings
     A. Operational Assessment of the Common Submarine Radio Room             5
     B. Information Support Plan Requirements for Low-Rate
         Initial Production                                                  10
     C. Life-Cycle Cost Estimate for the Common Submarine
         Radio Room Program                                                  16

Appendixes
     A.    Scope and Methodology                                             19
     B.    Glossary                                                          21
     C.    Description and Status of Key Technical Components and Software   25
     D.    Another Matter of Interest                                        28
     E.    Report Distribution                                               29

Management Comments
     Department of the Navy                                                  31
Basic Configuration of the Common Submarine Radio Room for the
Ohio-class Submarine
Background
    Navy commanders rely on the fleet’s submarine radio room to send and receive
    strategic and tactical command and control information, including messages to
    and from the National Command Authority.

    In a February 1995 mission need statement, the Navy identified the need for an
    updated and integrated exterior communications system, or radio room, on all
    classes of submarines to support missions in the areas of command and control;
    intelligence, reconnaissance, and surveillance; strike warfare, special operations
    forces; anti-submarine warfare; anti-surface warfare; and mine warfare. In
    March 1997, the Space and Naval Warfare Systems Command attempted to
    redesign the radio room on the Los Angeles-, Virginia- and Sea Wolf-classes, but
    the space planned for the Los Angeles radio room did not fit into the space
    planned for the Virginia and Sea Wolf radio rooms. As a result, the Naval Sea
    Systems Command decided to develop the radio room for the Virginia-class. In
    March 1998, the Naval Sea Systems Command awarded a contract to General
    Dynamics Electric Boat Division, Groton, Connecticut, to include an upgraded
    radio room in the design and construction of Virginia-class, and in 2001, it
    awarded a similar contract for the Sea Wolf-class. At that point, the Navy
    recognized the future benefit in personnel, training, and maintenance that could
    be realized by operating a similar radio room in all submarine classes.
    Accordingly, the Assistant Secretary of the Navy (Research, Development and
    Acquisition) and the Chief of Naval Operations directed the Naval Sea Systems
    Command and the Space and Naval Warfare Systems Command to work toward
    establishing a common design.
    In November 2001, the Program Executive Officer, Command, Control,
    Communications, Computers and Intelligence and Space, formerly known as the
    Director, Communication Systems Program Directorate, Space and Naval
    Warfare Systems Command, approved the development of the Common
    Submarine Radio Room (CSRR) Program as an acquisition category (ACAT) III
    program to upgrade the Ohio- and Los Angeles-classes of submarines. The figure
    illustrates the placement of the radio room architecture on the Ohio-class.

    CSRR Program. The Program Executive Officer, Command, Control,
    Communications, Computers, and Intelligence and Space, Space and Naval
    Warfare Systems Command, referred to in this report as the Program Executive
    Officer, approved the program manager’s plan to use the Virginia-class to design
    the architecture for the CSRR Program. When fully installed, the CSRR Program
    will provide timely, secure, reliable, and covert communications for the Virginia-,
    Sea Wolf-, Ohio-, and Los Angeles-classes. Additionally, the CSRR will provide
    submarine commanders with access to multiple frequency links through the
    components that are being developed by other Navy acquisition program
    managers, as well as frequency links through the Global Broadcast Service
    component being developed by the Air Force.

    The CSRR will accomplish secure, over-the-air satellite communications through
    very low, high, very high, ultra-high, and extremely high frequency data links.


                                         1
Simultaneous voice and data communications will reduce the time that submarine
commanders stay at periscope depth and remain visible to enemy forces.

Acquisition History and Strategy. In November 2001, when the CSRR
Program began, the program manager directed the Technical Direction Agent,
Naval Undersea Warfare Center, Newport, Rhode Island, to design the CSRR
architecture for the Ohio-class. The November 2002 acquisition strategy that the
program manager is using shows an evolutionary acquisition approach using
spiral development to design and develop the CSRR Program. The program
manager plans to use three incremental phases to counter diminishing
manufacturing sources and materiel shortages. During the first increment, the
CSRR Program team will develop the radio room for the Ohio-class ballistic-
missile and guided-missile submarines. For each future increment, integrated
components will be researched and developed in 2-year minor upgrades or 3-year
major upgrades for all submarine classes. The acquisition strategy also states that
the evolutionary development approach will reduce training requirements,
improve logistics support, and allow rapid insertion of new technology across the
submarine classes. The acquisition strategy identified a schedule for installing the
radio room on the Ohio-,Virginia-, and Sea Wolf-classes but not for the
Los Angeles-class.

In December 2003, the program manager awarded a contract to Lockheed Martin
Technical Systems (Lockheed), Eagan, Minnesota, to develop the control and
management software for the CSRR. Lockheed, who is a subcontractor for
Electric Boat, is also responsible for developing the CSRR software for the
Virginia- and Sea Wolf-classes. As of April 2005, the software development
contract for the CSRR Program totaled $9.5 million.

Throughout its life cycle, the Navy estimates that the CSRR Program will cost
$1.43 billion: $152 million in research, development, test and evaluation funds;
$624 million in operation and maintenance funds; and $657 million in
procurement funds to develop, procure and maintain the 67 radio rooms that the
Navy plans to use for operations, testing, and training.

Program Management. Because of differences in program funding, the
Virginia- and Sea Wolf-classes and four Ohio-class, guided-missile submarines
were funded as part of ship construction or conversion programs and the Los
Angeles- class and 14 Ohio- ballistic-missile class submarines were funded as
ship alteration programs. The Program Manager, CSRR, oversees the design,
development, and procurement of 14 Ohio ballistic-missile class submarines and
43 Los Angeles-class submarines

Because the acquisition strategy requires the Virginia- and Sea Wolf-classes to be
included as part of the CSRR Program, the Naval Sea Systems Command tasked
the CSRR Program Manager, as the Participating Activity Resources Manager, to
acquire radio rooms for its 30 Virginia- and 3 Sea-Wolf-classes when they are
upgraded. In turn, the CSRR Program Manager tasked the Naval Undersea
Warfare Center with maintaining the integrated test facility for the CSRR; the
System Center, Charleston, South Carolina, to provide the in-service engineering




                                     2
           for CSRR integration and installation; and the System Center at the Space and
           Naval Warfare Systems Command, San Diego, California, to provide software
           support.

           Because the CSRR Program is on the Director, Operational Test and Evaluation
           Oversight List, the Director must review and approve the CSRR test and
           evaluation master plan (TEMP). In March 2005, the Office of the Assistant
           Secretary of the Navy (Research, Development and Acquisition) directed the
           program manager to submit a request to the Navy Acquisition Executive to
           upgrade the CSRR Program to an ACAT II program because the estimated
           research, development, test, and evaluation funds exceeded $140 million and
           because of increased interest from senior Navy decision makers in the program’s
           status. Accordingly, when the CSRR Program was upgraded to an ACAT II
           program in April 2005, the Assistant Secretary of the Navy (Research,
           Development, and Acquisition) replaced the Program Executive Officer as the
           milestone decision authority for the acquisition and the upgrade of the Ohio-, Los
           Angeles- and Sea Wolf-classes. The Program Executive Officer, Submarines,
           Naval Sea Systems Command is the milestone decision authority for the new
           construction of the Virginia-class.
           In February 2005, the program manager approved the installation of the CSRR
           components on four Ohio-class, guided-missile submarines to meet ship
           construction and overhaul schedules. In June 2005, the Assistant Secretary of the
           Navy (Research, Development and Acquisition) held a low-rate initial production
           (LRIP) decision review on the CSRR Program for the Ohio-class submarine. A
           representative from the Office of the Assistant Secretary of the Navy (Research,
           Development and Acquisition) stated that the Navy Acquisition Executive
           approved the low-rate initial production of two sets for use in training facilities. 1
           The representative also stated that the program office would request approval to
           build four additional sets for four ballistic missile submarines in FY 2006 after
           another program review.


Objectives
           The audit objective was to evaluate the overall management of the CSRR
           Program. Because the program was in the system development and
           demonstration acquisition phase of the acquisition process, we determined
           whether management was cost-effectively readying the program for the
           production phase of the acquisition process. We also reviewed the adequacy of
           the management control program as it relates to the audit objective. See
           Appendix A for a discussion of the scope and methodology and Appendix D for
           another matter of interest related to the acquisition strategy.




1
    On June 24, 2005, we requested a copy of the Acquisition Decision Memorandum for the LRIP decision.


                                                    3
Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls to provide reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD policy, acquisition managers are to use program cost, schedule, and
    performance parameters as control objectives to implement the requirements of
    DoD Directive 5010.38. Accordingly, we limited our review to management
    controls directly related to the areas of test and evaluation, information support
    plan (ISP) requirements, and life-cycle cost estimating for the CSRR Program.

    Adequacy of Management Controls. We identified management control
    weaknesses, as defined by DoD Instruction 5010.40, relating to conducting an
    operational assessment before the LRIP for the CSRR Program, preparing and
    obtaining approval for an ISP, and updating the life-cycle cost estimate.
    Specifically, the program manager did not schedule an operational assessment or
    complete an ISP before the LRIP decision, and did not timely determine the effect
    that delays in receiving approval of the TEMP and the decision to support spiral
    development through FY 2024 had on CSRR Program life-cycle costs.
    Recommendations A., B.1., and B.2., if implemented, will ensure adherence to
    regulatory requirements. We offered no recommendation for finding C because
    the Program Executive Officer acknowledged the related management control
    weakness and corrected the deficiency before we issued the draft audit report.
    We will provide a copy of the report to the senior Navy official responsible for
    management controls in the Department of the Navy.

    Adequacy of Management’s Self-Evaluation. The Program Executive Officer
    performed annual reviews of the CSRR Program’s assessable units to satisfy the
    management control requirements. The Program Executive Officer used
    management reviews, audits, inspections, investigations and other management
    information, such as knowledge of daily operations of programs and functions, to
    evaluate the assessable units. The Program Executive Officer based his annual
    statements of assurance on the results noted during the reviews of the assessable
    units. However, in the self-evaluations, he did not identify the management
    control weaknesses in testing and the information support plan because the self-
    evaluations did not review those specific areas as part of the assessable units. The
    Program Executive Officer also did not identify the CSRR Program as a separate
    assessable unit.




                                          4
            A. Operational Assessment of the
               Common Submarine Radio Room
            The program manager did not schedule an operational assessment of the
            CSRR on the Ohio-class before he requested an LRIP decision review
            from the milestone decision authority because:

                 •   Eleven radio room hardware and software components needed for
                     the assessment were not available for integration;

                 •   The program manager believed that earlier, but incomplete,
                     developmental testing on the Sea Wolf- and Virginia-classes
                     minimized the risk that LRIP sets would satisfy Navy
                     requirements; and

                 •   The Program Executive Officer (the previous milestone decision
                     authority) did not require the program manager to complete an
                     operational assessment before the LRIP milestone decision
                     review.

            As a result, the program manager was not able to provide an evaluation of
            the potential operational effectiveness and suitability of the CSRR on the
            Ohio-class to the milestone decision authority at the LRIP decision review
            in June 2005, thereby increasing the risk that the LRIP units will not
            perform as intended. Because of the limited test results, the program
            manager reduced the number of CSRR sets that he planned to request at
            the LRIP decision from five sets to two sets.

DoD Policy for Low-Rate Initial Production
     DoD Instruction 5000.2. DoD Instruction 5000.2, “Operation of the Defense
     Acquisition System,” May 12, 2003, states that the two purposes of LRIP are to
     demonstrate adequate and efficient manufacturing capability at the completion of
     manufacturing development and to produce the minimum quantity necessary to
     provide production or production-representative articles for initial operational test
     and evaluation. The Instruction requires an acquisition program to demonstrate
     acceptable performance in the development, test and evaluation, and operational
     assessment phases of the acquisition process before entering into LRIP.
     Furthermore, the Instruction requires the Service (the Navy) to perform an
     independent operational assessment before releasing each successive increment to
     the user because it provides warfighter and acquisition decision makers with a
     prediction of the potential operational effectiveness and suitability of a weapon
     system before an investment is made in production units for operational testing.




                                           5
Status of CSRR Component and Software Development
    Since the CSRR Program began in November 2001, the program manager
    experienced test schedule delays because of development problems and late
    deliveries for 11 hardware and software components. As of July 2005, the
    program manager had resolved problems with nine components and software, but
    the Digital Modular Radio and the Multifunctional Cryptographic System
    components were still either in development or did not function as required.

    Digital Modular Radio. A representative from the Digital Modular Radio
    program office stated that the radio failed waveform testing in 2004. The next
    version, 6.4.1, is planned for release in December 2005 and is expected to pass
    the waveform testing requirements.

    Multifunctional Cryptographic System. Acquisition managers at the Space and
    Naval Warfare Systems Command decided to redesign the Multifunctional
    Cryptographic System in October 2004 after it did not pass security testing. As a
    result, the program manager replaced the component in the CSRR architecture
    with the Modern Legacy Crypto System, which is expected to complete testing by
    the end of 2005.

    As a result of late development and delivery of the hardware and software
    components for the CSRR, the program manager did not complete developmental
    testing before the June 2005 LRIP decision. Initially, the program manager
    planned to request five CSRR sets at the June 2005 LRIP decision review for two
    Ohio-class, ballistic-missile submarines; two training facilities; and the Naval
    Undersea Warfare Center test facility.

Operational Assessment
    At the June 2005 LRIP decision, the program manager requested the authority to
    purchase two CSRR sets for two Ohio-class, ballistic-missile submarines.
    However, the program manager did not schedule an operational assessment of the
    CSRR on the Ohio-class before the LRIP decision review because 11 key CSRR
    components were still in development under other acquisition programs.

    Because the Navy is designing the CSRR to be its primary communication tool
    for submarines, an operational assessment of the CSRR configuration on the
    Ohio-class was needed and should have been required before the Navy procured
    and installed additional CSRR sets.

    A representative from the Office of the Director, Operational Test and Evaluation
    also stated that CSRR developmental testing was not adequate to support an LRIP
    decision in June 2005. The representative stated that only 75 percent of the
    CSRR requirements had been verified and that an operational assessment should
    have been performed before the Navy invested further in CSRR hardware sets.




                                        6
Reliance on Developmental Test Results for Other
  Submarine Classes
     The program manager stated that the Program Executive Officer (the previous
     milestone decision authority) did not require the program office to obtain an
     operational assessment before the LRIP milestone decision review because he
     was confident that the system was successfully tested during the development
     phase on the Virginia- and Sea Wolf-classes. The program manager also believed
     that earlier testing on the Virginia- and Sea Wolf-classes minimized the risk of
     purchasing additional CSRR sets for the Ohio-class.

     The program manager planned to use the results of a CSRR operational
     assessment of the Sea Wolf-class that was to be performed in February 2005 to
     prepare for the LRIP decision review. However, the planned operational
     assessment did not occur because the Sea Wolf-class with the installed CSRR
     components was being overhauled and therefore was not available for the
     operational assessment. As a result, a CSRR operational assessment was not
     performed on the Sea Wolf before the June 2005 LRIP decision to invest in two
     additional sets of the CSRR for the Ohio-class. Further, the program manager for
     the Virginia- and Sea Wolf-classes deferred further CSRR testing of technological
     capabilities because the components needed for the testing were not available for
     integration. An operational assessment of the CSRR for the Ohio-class is
     scheduled for the first quarter of FY 2006.

Conclusion
     The audit team briefed a representative from the Office of the Assistant Secretary
     of the Navy (Research, Development and Acquisition) on the need to comply with
     the requirement in DoD Instruction 5000.2 to perform an operational assessment
     before the LRIP decision. The representative agreed that more developmental
     testing was needed. Accordingly, until additional developmental testing could be
     completed, the Navy Acquisition Executive authorized the program manager to
     procure only two sets of the CSRR for two land-based sets instead of the two sets
     the program manager requested for the Ohio-class, ballistic missile submarines
     and the five sets the program manager initially planned to request at the LRIP
     decision review.

     Because developmental testing was not completed for the CSRR before the LRIP
     decision in June 2005, an early operational assessment was even more essential to
     the milestone decision authority in evaluating the potential of the integrated
     system to meet the operational requirements. By not adhering to the mandatory
     requirement to perform an independent operational assessment of the CSRR
     before the LRIP decision review, the program manager increased the risk that
     CSRR sets produced under LRIP will not perform as intended. The risk increased
     because the program manager was not able to inform the Navy Acquisition
     Executive whether the CSRR was potentially operationally effective and suitable
     at the LRIP decision review in June 2005.



                                         7
Recommendations, Management Comments, and Audit
Response
    A. We recommend that the Program Manager, Common Submarine Radio
    Room delay the FY 2006 program review of the four low-rate initial
    production sets until he obtains an operational assessment which states that
    the Common Submarine Radio Room for the Ohio-class is potentially
    operationally effective and suitable.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Command,
    Control, Communications, Computers, Intelligence and Space), Office of the
    Assistant Secretary of the Navy, Research, Development and Acquisition
    nonconcurred with the recommendation, stating that DoD Instruction 5000.2 and
    Secretary of the Navy Instruction 5000.2C did not establish a mandatory
    requirement for the Navy Commander, Operational Test and Evaluation to
    conduct an operational assessment of the Common Submarine Radio Room
    before the milestone decision authority made a Milestone C, LRIP decision for
    the system. The Deputy Assistant Secretary stated that the milestone decision
    authority’s position was that an operational assessment was not necessary and that
    the DoD Office of the Inspector General had no technical basis to determine the
    specific level of detail that a milestone decision authority requires to make an
    LRIP decision.
    Instead of an operational assessment to support the FY 2006 LRIP program
    review, the milestone decision authority required the CSRR program office to
    demonstrate CSRR system maturity by completing a 60-day developmental
    testing and land-based hardware and software reliability testing of the Sea Wolf-
    class submarine in accordance with a plan that the Acquisition Coordination
    Team approved. The CSRR program manager stated that implementation of the
    plan will enable the program office to certify the CSRR system robustness before
    installation on the first Ohio-class submarine.

    Audit Response. Contrary to the Deputy Assistant Secretary’s assertion, DoD
    Instruction 5000.2 states that entrance into Milestone C, LRIP, depends on the
    following criteria:
              Acceptable performance in development, test and evaluation and
              operational assessment (emphasis added); mature software capability;
              no significant manufacturing risks; an approved Capability Production
              Document (CPD); acceptable interoperability (emphasis added);
              acceptable operational suitability (emphasis added); compliance with
              the DoD Strategic Plan; and demonstration that the system is affordable
              throughout the life cycle, optimally funded, and properly phased for
              rapid acquisition.

    The Instruction, under reporting requirements, requires that an operational
    assessment be prepared in support of the Milestone C, LRIP decision by showing
    that an operational test agency report of operational test and evaluation results is
    required at the Milestone C decision review. It is unclear as to why the milestone




                                            8
decision authority is reluctant to include the operational test and evaluation
community in determining whether the system has the potential of being
operationally effective and suitable.

Further, as stated in the finding, the Office of the Director, Operational Test and
Evaluation stated that an operational assessment should have been performed
before the Navy invested further in CSRR hardware sets.

To satisfy the operational assessment requirement before the FY 2006 LRIP
decision review, the Commander, Operational Test and Evaluation could, if
requested, oversee the conduct of the 60-day developmental testing and land-
based hardware and software reliability testing of the Sea Wolf-class submarine
and prepare an operational assessment in support of the decision review. Before a
further investment decision is made on the CSRR Program, an operational
assessment must be conducted to justify the continued investment in LRIP units
and to provide the milestone decision authority with assurance that the CSRR,
potentially, will operate as intended and reduce program risk.
Accordingly, we request that the Program Manager, Common Submarine Radio
Room reconsider his position on Recommendation A. in response to the final
report.

For the complete text of the Navy’s comments, see the Management Comments
section of the report.




                                      9
            B. Information Support Plan
               Requirements for Low-Rate
               Initial Production
            The program manager did not complete an ISP for the CSRR Program
            before requesting an LRIP decision from the milestone decision authority
            in June 2005. The Program Manager needed a revised ISP to:

                •   Adequately evaluate the interoperability key performance
                    parameter (KPP) for the CSRR sets; and

                •   Identify test requirements to measure the new net-ready KPP for
                    the CSRR sets.
            These conditions occurred because the previous milestone decision
            authority, the Program Executive Officer, believed that preparation of a
            compliant ISP was more essential for the full-rate production decision
            than the LRIP decision that is required by DoD policy. As a result of not
            completing the ISP as required before the LRIP decision, the program
            manager was not able to fully inform the current milestone decision
            authority, the Navy Acquisition Executive, of the CSRR Program’s
            progress and limitations toward achieving the interoperability KPP and
            completing a TEMP for the Ohio-class.

Policy for Low-Rate Initial Production Readiness
     The DoD provides policies and guidance for DoD Components to use in defining
     system requirements for an ISP. DoD Instruction 5000.2 provides instructions for
     acquisition program managers to follow when they are readying a program for a
     milestone decision. DoD Instruction 4630.8, “Interoperability and Supportability
     of Information Technology and National Security Systems,” June 30, 2004,
     describes DoD policy and responsibilities for interoperability and supportability
     of information technology, including National Security Systems. Additionally,
     Chairman of the Joint Chiefs of Staff Instruction (CJCSI) 6212.01C,
     “Interoperability and Supportability of Information Technology and National
     Security Systems,” November 20, 2003, includes policy for establishing and
     certifying the security of interoperable (net-ready) and supportable information
     systems. The Joint Requirements Oversight Council Memorandum (JROCM)
     236-03, “Policy for Updating Capabilities Documents to Incorporate the Net-
     Ready Key Performance Parameter,” December 19, 2003, details policy for
     migrating the interoperability KPP to the new net-ready KPP.

     DoD Instruction 5000.2. DoD Instruction 5000.2 requires that program
     managers prepare and obtain approval for an ISP before milestone B, System
     Development and Demonstration, and milestone C, Production and Deployment,
     decisions.



                                        10
DoD Instruction 4630.8. DoD Instruction 4630.8 requires DoD Components to
establish an ISP approval process for ACAT II and III programs and to identify
interoperability requirements, infrastructure requirements, and other support
requirements for information technology and National Security Systems early in
the acquisition life cycle. The Instruction states that, at each milestone review,
the ISP will become progressively more detailed, and will contain more specific
information on operational systems, and technical architecture reviews; security,
connectivity, and interoperability issues; and infrastructure and support issues.
The Instruction requires that the Director, Operational Test and Evaluation ensure
that TEMPs and operational test plans for acquisition programs on his oversight
list identify interoperability test requirements for information technology and
National Security Systems and emphasize that interoperability and supportability
be evaluated as early as possible in a system’s development.

CJCSI 6212.01C. CJCSI 6212.01C requires program managers to prepare ISPs
that contain a net-ready KPP for systems that exchange information with other
systems and to replace the requirement for program managers to prepare the
Command, Control, Communication, Computers and Intelligence Support Plan.
Implementation of the net-ready KPP will make the CSRR interoperable and also
comply with the net-centric operations and warfare reference model, applicable
Global Information Grid key interface profiles, DoD information assurance
requirements, and the supporting integrated architecture products for a given
capability. CJCSI 6212.01C states that the interoperability KPPs contained in
existing capstone requirements documents will remain valid until they are
replaced with completed integrated architectures. Program managers are required
to transition from the interoperability KPP to the net-ready KPP by 2006.
CJCSI 6212.01C further requires that program managers describe system
dependencies and interface requirements in the ISP in sufficient detail to test and
verify that information technology and National Security Systems meet the
interoperability and supportability requirements. It also states that the ISP must
include system interface descriptions, infrastructure and support requirements,
standards profiles, and measures of performance and interoperability. The Joint
Staff J-6, Director for Command, Control, Communications, Computers and
Intelligence is responsible for coordinating ISP reviews for ACAT II and below
programs before the milestone C decision.

JROCM 236-03. JROCM 236-03 provides procedures for converting the
interoperability KPP to the net-ready KPP and for preparing capabilities
documents to support a milestone B or milestone C decision review. The
capabilities documents must include one of the following:

   •   The net-ready KPP.

   •   The interoperability KPP with a migration strategy to the applicable
       components of the net-ready KPP.

   •   A statement that the sponsoring organization will update the
       interoperability KPP to include all applicable established components of
       the net-ready KPP within 6 months.



                                     11
Information Support Plan for the Common Submarine Radio
   Room Program
    Command, Control, Communications, Computers, and Intelligence Support
    Plan. In May 2002, the program manager prepared a draft Command, Control,
    Communications, Computers, and Intelligence Support Plan for the Ohio-class,
    guided-missile submarine for CSRR entry into the system development and
    demonstration phase of the acquisition process. The draft Command, Control,
    Communications, Computers, and Intelligence Support plan identified the extent
    to which the existing equipment and systems could meet the information support,
    requirements and identified shortfalls in the available or projected support, but it
    did not identify how to measure CSRR interoperability requirements. When the
    Program Executive Officer, the milestone decision authority, established the
    CSRR as an ACAT II program in the development and demonstration phase of
    the acquisition process, he did not approve the draft Command, Control,
    Communications, Computers, and Intelligence Support Plan or the replacement
    draft ISP.
    Before he proceeded with the LRIP decision review, the program manager should
    have prepared an ISP that complied with CJCSI 6212.01C and JROCM 236-03,
    as required, to ensure that the interoperability KPP and its migration strategy to
    the net-ready KPP will be adequately evaluated for the CSRR sets that are
    installed on the Ohio-class platform and to identify test requirements to measure
    whether the CSRR met the interoperability and net-ready KPP requirements.
    However, the program manager did not complete a compliant ISP for the CSRR
    Program before he requested the LRIP decision from the milestone decision
    authority in June 2005.

    Updating the Command, Control, Communications, Computers, and
    Intelligence Support Plan to ISP Requirements. During the audit, the program
    manager updated the draft Command, Control, Communications, Computers and
    Intelligence Support Plan to state that the interoperability KPP would continue to
    be used, but it did not include a strategy to transition from the interoperability
    KPP to the net-ready KPP, as required by CJCSI 6212.01C. In addition, because
    the Navy had not completed the capability development document, the Joint Staff
    J-6 could not review and validate the draft ISP.

    Until the Navy replaces the interoperability KPP with the net-ready KPP in the
    capability development document and adheres to the ISP, Navy submarine
    commanders will not have assurance that the CSRR will satisfy requirements to
    communicate securely by telephone, radio, or Internet with surface vessels, land-
    based networks, and satellites. As indicated in DoD Instruction 4630.8, the ISP is
    a tool that should be used to identify potential issues and propose solutions for
    implementing the net-ready KPP.

    Testing for Interoperability. Because the CSRR Program is on the Director,
    Operational Test and Evaluation oversight list, the program manager cannot
    obtain approval of the TEMP for the Ohio-class until he completes the ISP. As of




                                         12
          July 2005, the Navy had not fully evaluated whether the system meets the
          interoperability requirements listed in the approved capstone requirements
          document.

Establishing an Information Support Plan for the Low-Rate
  Initial Production Decision
          The previous milestone decision authority, the Program Executive Officer,
          believed that a compliant ISP was more essential for the full-rate production
          decision than the LRIP decision review required by DoD policy. During the
          audit, the Program Executive Officer stated that, based on the requirements in
          Secretary of the Navy Instruction 5000.2B, 2 the plan did not need to be approved
          until the full-rate production decision review if the CSRR ISP was progressing
          towards completion. In addition, the Program Executive Officer stated that the
          ISP was needed to support the full-rate production decision because the Joint
          Interoperability Test Command will need to certify that the system’s
          interoperability is sufficient to support a fielding decision. The Program
          Executive Officer misstated the ISP preparation requirements of DoD
          Instruction 5000.2 and Navy Instruction 5000.2B, which require the ISP to be
          approved before the milestone C decision.
          A representative for the Assistant Secretary of Defense for Networks and
          Information Integration, who is knowledgeable about the CSRR Program, stated
          that preparing a completed ISP earlier in the acquisition process would inform the
          milestone decision authority of program risks and their effect on program cost and
          schedule. The representative also stated that because the basic architecture for the
          Virginia- and the Sea Wolf-classes was also used for the Ohio-class, the Navy
          should submit a single ISP for those classes to the Assistant Secretary of Defense
          for Networks and Information Integration for approval.

          In June 2005, the program manager stated that after being notified of the audit
          finding on the ISP, he developed and submitted a revised ISP plan for approval.
          A representative from the Office of the Assistant Secretary of the Navy
          (Research, Development and Acquisition) confirmed that the Navy Chief
          Engineer and the Navy Chief Information Officer reviewed and concurred with
          the plan, and that the Program Executive Officer, the milestone decision
          authority, signed off on the plan. To complete the review process in accordance
          with CJCSI 6212.01C, the Navy needs to coordinate the ISP with the Joint
          Staff J-6; however, the Joint Staff J-6 will not coordinate on the ISP until the
          Navy has an approved capability development document. For systems that
          receive or transmit information, the capability development document specifies
          the quality of service needed to support interoperability requirements. Until the
          capability development document is approved, the ISP cannot specify the
          information support requirements necessary for the quality of service defined in
          the capability development document.


2
     Secretary of the Navy Instruction 5000.2B applied during most of the CSRR development. The
    Instruction was updated on November 11, 2004, to Secretary of the Navy Instruction 5000.2C.


                                                   13
Conclusion
    Without an approved ISP before the LRIP decision in June 2005, the program
    manager was not able to fully inform the milestone decision authority of the
    CSRR Program’s progress toward achieving the interoperability KPP and
    completing the TEMP before conducting operational testing of the Ohio-class.
    Until the program manager completes the ISP coordination process with the Joint
    Staff J-6, the milestone decision authority will not have the information needed to
    determine whether the system should proceed further through the acquisition
    process. Specifically, the milestone decision authority does not have assurance
    that the system is compatible with the existing command, control,
    communication, computers and intelligence infrastructure of other
    communication systems and whether it is able to meet the interoperability and
    information needs of the warfighter. Furthermore, the program manager, as
    recommended by the Office of the Assistant Secretary of Defense for Networks
    and Information Integration, should determine the feasibility of preparing one
    overarching ISP for the CSRR to cover all submarine classes in coordination with
    the program managers for the Virginia- and Sea Wolf-classes.


Management Comments on the Finding and Audit Response
    Navy Comments. The Deputy Assistant Secretary of the Navy (Command,
    Control Communications, Computers, Intelligence and Space) acknowledged that
    the Joint Staff had not reviewed and approved the CSRR Information Support
    Plan before the June 22, 2005, Milestone C LRIP program review. However, he
    stated that the Navy had approved the CSRR Information Support Plan before the
    program review and that the milestone decision authority was confident that the
    available support information was of sufficient detail and accuracy to support a
    positive LRIP decision. The Deputy Assistant Secretary further stated that he did
    not agree that the Navy was required to complete a separate CSRR Information
    Support Plan because radio receivers, transmitters, terminals, and crypto devices
    used in the CSRR Program were developed separately and already met their own
    documentation and test requirements. However, he stated that the CSRR program
    office elected to prepare an overarching information support plan to satisfy a
    requirement levied on the Submarine Exterior Communications System of which
    the CSRR is a part.

    Audit Response. We disagree with the Deputy Assistant Secretary’s conclusion
    that a separate CSRR Information Support Plan was not needed because
    components within the CSRR were developed separately and already met their
    own documentation and test requirements. As stated in finding A, two of the
    CSRR components were either still in development or did not function as
    required. Additionally, even if all CSRR components were fully developed and
    functioned as required, the Navy needs to have a CSRR Information Support Plan
    to identify interoperability requirements, infrastructure requirements, and other
    support requirements to ensure that the CSRR components, when integrated, will
    satisfy the warfighter’s CSRR information technology and the National Security



                                        14
    System requirements. We commend the CSRR program manager for going
    forward with preparing and gaining Joint Staff review and approval of a CSRR
    Information Support Plan.

Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Program Manager, Common Submarine Radio
    Room Program:

            1. Coordinate the information support plan with the Director for
    Command, Control, Communications, and Computers Systems, Joint Staff
    J-6, for review and validation before beginning operational testing of the
    Common Submarine Radio Room on the Ohio-class as required by the Joint
    Chiefs of Staff Instruction 6212.01C, “Interoperability and Supportability of
    National Security Systems, and Information Technology,”
    November 20, 2003.
          2. Together with the program managers for the Virginia- and
    Sea Wolf-classes, determine the feasibility of preparing one overarching
    information support plan for the Common Submarine Radio Room in all
    submarine classes and jointly establish the plan.

    Navy Comments. The Program Manager, Common Submarine Radio Room
    Program concurred with the audit recommendations, stating that the CSRR
    Information Support Plan would be coordinated with the Director for Command,
    Control, Communications, and Computer Systems, Joint Staff, J-6 when it is
    entered into the Joint Command, Control, Communications, Computers, and
    Intelligence Program Assessment Tool. During the phase one modernization
    upgrade planned for in FY 2008, he stated that, as Participating Program Manager
    for all CSRR installations on all submarine classes, he would revise and prepare
    an overarching CSRR information support plan for all submarine classes. The
    Program Manager stated that the estimated completion date for the overarching
    CSRR Information Support Plan was September 2007.




                                       15
           C. Life-Cycle Cost Estimate for the
              Common Submarine Radio Room
              Program
           The program manager did not timely determine the effect that delays in
           completing the development test program or the decision to support spiral
           development through 2024 had on CSRR Program life-cycle costs because
           the Space and Naval Warfare Systems Command did not require program
           offices to maintain updated life-cycle cost estimates between milestone
           decision points or to document the effect of significant events on overall
           program costs. As a result, the program manager did not provide the
           milestone decision authority and the Navy resource sponsor with the cost
           information they needed to timely assess the magnitude of program costs
           and to make timely decisions for the CSRR Program budget.

Life-Cycle Cost Requirements
    DoD Guidance. DoD Directive 5000.1, “The Defense Acquisition System,”
    May 12, 2003, and DoD Instruction 5000.2 provide acquisition program managers
    with mandatory policies and procedures for managing all acquisition programs.
    Secretary of the Navy Instruction 5000.2C, “Implementation and Operation of the
    Defense Acquisition System and the Joint Capabilities Integration and
    Development System,” November 19, 2004, implements DoD guidance and
    establishes Navy mandatory acquisition procedures for major and non-major
    defense acquisition programs.

            DoD Directive 5000.1. DoD Directive 5000.1 states that project
    managers are accountable for credible cost, schedule, and performance reporting
    to the milestone decision authority.

            DoD Instruction 5000.2. DoD Instruction 5000.2 requires the milestone
    decision authority to assess program affordability at each milestone decision
    point. The Instruction also requires program managers to report ACAT changes
    to the milestone decision authority as soon as the program is within 10 percent of
    the next ACAT level.

            Secretary of the Navy Instruction 5000.2C. Secretary of the Navy
    Instruction 5000.2C requires program managers to submit a program affordability
    analysis, which includes life-cycle costs, for assessment at each program decision
    point. The Instruction also requires program managers to submit an ACAT
    designation change request for approval when program cost increases exceed the
    cost threshold for the next ACAT level. Further, the Instruction requires program
    managers to prepare a program deviation report when cost parameters in the
    acquisition program baseline agreement are breached.




                                        16
Significant Events Affecting the Life-Cycle Cost Estimate
     The program manager could not complete developmental testing for the
     integrated architecture to ready it for operational testing. According to a
     representative for the program manager, the CSRR development test program
     could not be completed because critical components were not available to be
     integrated into the architecture. As a result, the LRIP decision was delayed from
     July 2004 to June 2005.

     The program manager stated that additional testing of the CSRR would be
     required because the late delivery of components resulted in the interim use of
     alternative legacy components as replacements. The additional testing increased
     program costs. Although the program manager first became aware of delays in
     obtaining components through meetings of the Design Build Management Team
     in October 2003, he did not update the May 2000 CSRR life-cycle cost estimate.
     In January 2004, the program manager submitted Change 1 to the acquisition
     program baseline agreement which reported that the CSRR Program’s estimated
     life-cycle costs had increased from $554 million to $614 million. In March 2005,
     the program manager updated the life-cycle cost estimate to $1.43 billion in
     preparation for the LRIP decision planned for June 2005. A representative for the
     program manager stated that the primary reasons for the greater costs were
     increased unit costs for the components and increased support costs because of
     the Navy decision to support spiral development of the CSRR for another 4 years
     through FY 2024.

Command Policy for Updating Life-Cycle Cost Estimates
     At the start of the review in October 2004, the Space and Naval Warfare Systems
     Command did not require program managers for ACAT III programs to update
     life-cycle cost estimates between milestone decision points or when significant
     events affected overall program costs. A representative for acquisition policy
     within the Office of the Program Executive Officer acknowledged the need for a
     policy that required acquisition program managers for ACAT III and IV programs
     to monitor and update life-cycle cost estimates between milestone decision points.
     The representative stated that an acquisition policy would be implemented.
     In January 2005, the Program Executive Officer signed a policy requiring
     acquisition program managers to monitor and update program life-cycle cost
     estimates. Accordingly, the CSRR Program Manager tasked the support
     contractor, Booz Allen Hamilton, San Diego, California, to monitor and update
     program costs after submitting the March 2005 cost estimate.

Conclusion
     The program manager did not timely provide the milestone decision authority and
     the Navy resource sponsor with the cost information they needed to timely assess
     the magnitude of program costs and to make timely decisions concerning the

                                         17
    CSRR Program budget. However, during the audit, the Program Executive
    Officer revised the cost-estimating policy and the program manager tasked the
    support contractor with monitoring and updating the CSRR Program’s life-cycle
    cost estimate in compliance with the policy. Compliance with the new cost
    estimating policy should result in timely notification to the acquisition decision
    makers; therefore we are not making a recommendation to accompany this
    finding. We commend the Program Executive Officer and the CSRR Program
    Manager for taking corrective actions during the audit.

Management Comments on the Finding
    Navy Comments. The Deputy Assistant Secretary of the Navy (Command,
    Control, Communications, Computers, Intelligence and Space), Office of the
    Assistant Secretary of the Navy, Research, Development and Acquisition
    responded for the program manager. He commented that in addition to taking
    corrective actions cited by the draft report, the CSRR Program Manager has also
    scheduled an independent cost estimate to adequately define and independently
    verify all costs before the FY 2006 program review.

    For the complete text of the Navy’s comments, see the Management Comments
    section of the report.




                                        18
Appendix A. Scope and Methodology
   We evaluated whether the program manager was cost-effectively and efficiently
   readying the CSRR Program for the production phase of the acquisition process.
   Consequently, we focused the review on the areas of timely meeting CSRR
   requirements, timely preparing information system security requirements, and
   timely updating program cost estimates. We performed this audit from September
   2004 through June 2005 in accordance with generally accepted government
   auditing standards.

   We reviewed documentation dated from February 1995 through April 2005,
   which we obtained from the Program Executive Office, Command, Control,
   Communication, Computers and Intelligence, San Diego, California; the Naval
   Sea Systems Command, Washington, D.C.; the Naval Undersea Warfare Center
   Division, Newport, Rhode Island; Electric Boat, Groton, Connecticut; and
   Lockheed Martin Tactical Systems, Eagan, Minnesota.

   To accomplish the audit objectives, we took the following steps:

      •   We reviewed DoD Instruction 5000.2, “Operation of the Defense
          Acquisition System,” May 12, 2003, to determine the requirements for
          conducting an operational assessment of the radio room for the Ohio-class
          guided-missile submarine before LRIP.

      •   We reviewed DoD Instruction 5000.2 to determine ISP preparation
          requirements in the acquisition process. We also reviewed DoD
          Instruction 4630.8, “Interoperability and Supportability of Information
          Technology and National Security Systems,” June 30, 2004, to determine
          whether the program manager was satisfying ISP requirements and the
          requirements of CJCSI 6212.01C, “Interoperability and Supportability of
          Information Technology and National Security Systems,”
          November 20, 2003, to determine the need for an ISP. Further, we
          reviewed Joint Requirements Oversight Council Memorandum, “Policy
          for Updating Capabilities Documents to Incorporate the Net-Ready Key
          Performance Parameter,” December 19, 2003, to determine DoD policy
          for transitioning from the interoperability KPP to the net-ready KPP.

      •   We reviewed DoD Directive 5000.1, “The Defense Acquisition System,”
          May 12, 2003; DoD Instruction 5000.2; and Secretary of the Navy
          Instruction 5000.2C, “Implementation and Operation of the Defense
          Acquisition System and the Joint Capabilities Integration and
          Development System,” November 19, 2004, to determine the requirements
          for updating the life-cycle cost estimate for the CSRR Program.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.




                                      19
    Use of Technical Assistance. A computer engineer from the Technical
    Assessment Division, Office of the DoD Assistant Inspector General for Auditing
    participated in the review of the CSRR Program. Specifically, the computer
    engineer evaluated the information assurance process and the level of software
    failures that required alternative system solutions.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Weapons System Acquisition high-risk area.

Prior Coverage
    No prior coverage has been conducted on the CSRR Program during the last
    5 years.




                                        20
Appendix B. Glossary
   Acquisition Category II. An Acquisition Category II program is a major system
   that does not meet the criteria for an ACAT I program. A major system is a
   program estimated by the DoD Component Head to require an eventual
   expenditure for Research, Development, Test and Evaluation funds of more than
   $140 million in FY 2000 constant dollars, or for procurement funds of more than
   $660 million in FY 2000 constant dollars, or those designated by the DoD
   Component Head to be an ACAT II program.

   Acquisition Category III. Acquisition Category III programs are those
   acquisition programs that do not meet the criteria for ACAT I, ACAT IA, or
   ACAT II programs. The milestone decision authority is designated by the
   Command Acquisition Executive at the lowest appropriate level. This category
   includes less-than-major automated information systems.

   Acquisition Program Baseline Agreement. An acquisition program baseline
   agreement prescribes the key cost, schedule, and cost constraints in the
   acquisition phase succeeding the milestone for which it was developed. The
   milestone decision authority approves the agreement, which is prepared by the
   acquisition program manager.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, testing, production, fielding, modification,
   post-production management, and other activities essential for program success.
   The acquisition strategy is the basis for formulating functional plans and
   strategies.

   Capability Development Document. The capability development document
   captures information necessary to develop a proposed program, normally using an
   evolutionary acquisition strategy. It outlines an affordable increment of militarily
   useful, logistically supportable, and technically mature capability and is used to
   support program initiation, the Milestone B review.

   Capstone Requirements Document. The capstone requirements document
   contains the capabilities-based requirements and provides a common framework
   and operational concept for developing the capability development document(s)
   for one or more weapon systems. The Joint Requirements Oversight Council
   retains the authority to specifically direct the development of a new capstone
   requirements document as necessary.

   Developmental Test and Evaluation. Developmental test and evaluation is any
   testing that assists in the development and maturation of products, product
   elements, or manufacturing or support processes. It is any engineering-type test
   used to verify the status of technical progress, verify that design risks are
   minimized, substantiate achievement of contract technical performance, and
   certify readiness for initial operational testing. Developmental tests generally


                                        21
require instrumentation, and measurements are accomplished by engineers,
technicians, or soldier operator-maintainer test personnel in a controlled
environment to facilitate failure analysis.

Full Operational Capability. Full operational capability is the capability to
effectively employ a weapon, or item of equipment, or a system of approved
specific characteristics, which is operated by a trained, equipped, and supported
military unit or force.

Global Information Grid. The Global Information Grid is the basis for net-
centric warfare that collects, processes, stores, disseminates, and manages
information on demand to warfighters, policy makers, and support personnel.
The Global Information Grid includes all owned and leased hardware, software,
and services necessary to achieve information superiority. It supports all DoD,
National Security Systems, and related intelligence community missions and
functions in war and in peace. The Global Information Grid provides information
support from all operating locations and interfaces with coalition, allied, and non-
DoD users and systems.

Incremental Development. The incremental development approach determines
user needs and defines the overall architecture, but then delivers the system in a
series of increments (software builds). The first build incorporates a part of the
total planned capabilities, the next build adds more capabilities, the next one adds
more capabilities, and so on, until the entire system is complete.

Information Support Plan. The information support plan, formerly known as
the Command, Control, Communications, Computers, and Intelligence Support
Plan, identifies and documents information needs, infrastructure support, and
information technology and National Security System interface requirements and
dependencies. The ISP focuses on net-centricity, interoperability, supportability,
and sufficiency concerns.

Interoperability. Interoperability is the ability of systems, units, or forces to
provide data, information, materiel, and services to (and accept the same from)
other systems, units, or forces and to use the data, information, materiel, and
services so exchanged to enable them to operate effectively together. National
Security System and information technology system interoperability includes the
technical exchange of information and the end-to-end operational effectiveness of
that exchanged information as required for mission accomplishment.
Interoperability is a mandatory key performance parameter.

Key Performance Parameters. Key performance parameters (KPPs) are those
minimum attributes or characteristics considered most essential for an effective
military capability. KPPs cited in the capability development document and the
capabilities production document are included verbatim in the acquisition
program baseline agreement.




                                     22
Life-Cycle Costs. Life-cycle costs are the total system acquisition and ownership
costs to the Government over its useful life. They include the cost of
development, acquisition, operations, support (to include manpower), and, where
applicable, disposal. For DoD systems, life-cycle costs are also called total
ownership costs.

Low-Rate Initial Production. Low-rate initial production (LRIP) is the first part
of the production and deployment phase whose purpose is to establish an initial
production base for the system, permit an orderly ramp-up that will lead to a
smooth transition to full-rate production, and provide production-representative
articles for initial operational test and evaluation and full-up live-fire testing.
This phase concludes with a full-rate production decision review to authorize full-
rate production and deployment. For major DoD acquisition programs, LRIP
quantities of more than 10 percent of the acquisition objective must be reported in
the Selected Acquisition Report. For ships and satellites, LRIP is the minimum
quantity and rate that helps establish initial mobilization.
Milestone Decision Authority. The milestone decision authority is the
designated individual who has the overall responsibility for a program. The
milestone decision authority approves entry of an acquisition program into the
next phase of the acquisition process and is accountable for cost, schedule, and
performance reporting to higher authority.

National Security System. A National Security System is any
telecommunications or information system operated by the U. S. Government, the
function, operation, or use of which involves intelligence activities, cryptologic
activities related to national security, command and control of military forces, and
equipment that is an integral part of a weapons system or is critical to the direct
fulfillment of military or intelligence missions.

Net Centric. Net centric is the exploitation of advancing technology that allows
users to access applications and services through Web services. Net-centricity
comprises interoperable computing and communication components and provides
users with real-time access to information resources.

Net-Ready Key Performance Parameter. A net-ready Key Performance
Parameter (KPP) assesses information needs, information timeliness, information
assurance, and network functions required for information exchange and use. A
net-ready KPP consists of measurable and testable characteristics, performance
metrics, or both, required for the timely, accurate, and complete exchange and use
of information to satisfy information needs for a given capability. The net-ready
KPP includes compliance with the net-centric operations and warfare reference
model; compliance with applicable Global Information Grid key interface
profiles; verification of compliance with DoD information assurance
requirements; and supporting integrated architecture products that are required to
assess information exchange and use for a given capability. A net-ready KPP is
documented in a capability development document, a capabilities production
document, and a capstone requirements document.

Operational Assessment. An operational assessment is an evaluation of
operational effectiveness and operational suitability by an independent


                                     23
operational test organization, with user support as required, on other than
production systems. The operational assessment focuses on significant trends in
development, programmatic voids, risk areas, adequacy of requirements, and the
ability of the program to support adequate operational testing. An operational
assessment may be conducted at any time using technology demonstrators,
prototypes, mock-ups, and engineering development models or simulations, but
will not substitute for the initial operational test and evaluation necessary to
support full-rate production decisions. An operational assessment is normally
conducted in support of a low-rate initial production decision.

Operational Test and Evaluation. Operational test and evaluation is the field
test, under realistic conditions, of any item (or key component) of a weapon,
equipment, or munitions to determine the effectiveness and suitability of the
weapon, equipment, or munitions for use in combat by typical military users, and
the evaluation of the test results.

Risk. Risk is the measure of the inability to achieve program objectives within
defined cost, schedule, and technical constraints of all aspects of the program.

Spiral Development. The spiral development approach develops and delivers a
system in builds, but differs from the incremental approach by acknowledging
that, because the user need is not fully formed at the beginning of development,
all requirements are not initially defined. The initial build delivers a system based
on the requirements as they are known at the time development is initiated, and
then succeeding builds are delivered that meet additional requirements as they
become known.

System Development and Demonstration. The system development and
demonstration phase (milestone B) is the third phase of the DoD system
acquisition process and consists of system integration and system demonstration.
This phase also contains a design readiness review at the conclusion of the system
integration.

Technology Development. Technology development is the second phase
(milestone A) of the DoD system acquisition process, whose purpose is to reduce
technology risk and to determine the appropriate set of technologies to be
integrated into the full system. This phase is normally funded only for advanced
development work and does not mean the initiation of a new acquisition program.

Test and Evaluation Master Plan. The TEMP documents the overall structure
and objectives of the test and evaluation program. It provides a framework within
which to generate detailed test and evaluation plans and to document schedule
and resource implications associated with the test and evaluation program. The
TEMP identifies the necessary developmental test and evaluation, operational test
and evaluation, and live-fire test and evaluation activities.




                                     24
Appendix C. Description and Status of Key
            Technical Components
            and Software
   The CSRR system integrates components, software, and interfaces into a radio
   room architecture that can simultaneously receive and transmit messages when a
   submarine is at or below periscope depth. Component and software problems
   caused test schedule delays and configuration changes during the development of
   the CSRR for the Ohio-, Virginia-, and Sea Wolf-classes. The delays in testing
   resulted in the increased risk of procuring and installing the CSRR on submarines
   without knowing whether it meets user requirements. Until the components and
   software are fully completed, the CSRR cannot be fully tested. A description and
   the status of some of the key components, software, and interfaces follow.

   Channel Service Unit/Data Service Unit. The channel service unit/data service
   unit connects digital network channels on the submarine to data equipment at
   shore-based facilities. The unit translates transmissions from the submarine for
   the shore-based data equipment so that the shore-based equipment can accept and
   use the submarine data. Due to an information assurance risk identified in
   October 2004, the unit was disconnected.

   Control and Management Software. The Control and Management Software
   provides centralized, computer-based control and monitoring capabilities for
   CSRR equipment. This software, developed by Lockheed Martin, manages
   components from Q-70 workstations. As of July 2005, the software required
   additional developmental testing.

   Digital Modular Radio. The Digital Modular Radio component has software
   that is programmable, has modular hardware and software, and is capable of
   being reconfigured to operate with different waveforms and protocols anywhere
   in the ultra high frequency band. The Digital Modular Radio also provides
   embedded communication security functions. Each Digital Modular Radio
   includes four multiple, independent levels of security compartments. Because of
   software development issues, the Digital Modular Radio was not completed as
   planned. The program manager for this component expects to have the new
   version of the software ready by December 2005.
   Digital Modular Radio Power Amplifiers. The amplifiers amplify signal
   strength for high frequency and ultra high frequency transceivers. Shipment was
   delayed and, although some were received in late June 2005, their availability is
   still undecided.

   Extremely Low Frequency. Extremely low frequency is a circuit that operates
   at extremely low radio frequency bandwidths and is used as a “bellringer” to
   notify submarine crews when they have incoming messages. Submarine crews
   must then come to a depth at which they can receive additional message traffic by
   raising their antennas to receive messages. Because this circuit operates at such




                                       25
           low bandwidths, the submarine is able to maintain stealth. As a result of an
           information assurance problem, the circuit was shut off and the fleet requested
           removal of the circuit from the submarines in June 2005.

           Extremely High Frequency. Extremely high frequency is a circuit for extremely
           high radio frequency bandwidths. This circuit connects to military, strategic,
           tactical, and relay satellite communications.

           Extended Turn (Extended Simple Mail Transfer Protocol Client/Server Mail
           Command). Extended Turn software is required for the Submarine Single
           Messaging Solution to be able to query shore-based file servers for delivery of
           e-mail to submarines. The correct software was not included when the messaging
           system was received by the CSRR Program, so a delay resulted. The correct
           software version has been received and included in the conversion baseline.
           Follow-On Terminal. The Follow-On Terminal component is a satellite
           communications terminal that operates at extremely high frequency through the
           Military Strategic Tactical and Relay Satellite, the Fleet Satellite Communications
           System Extremely High Frequency Package Satellite, the Ultra High Frequency
           Follow-On/Extremely High Frequency/Enhanced Satellite, and the Polar Satellite
           to other satellite communications terminals. These components were ready ahead
           of schedule.

           Global Broadcast Service. The Global Broadcast Service component is an
           emerging, worldwide, high capacity, one-way transmission capability that
           supports distribution of a wide variety of data, video, imagery, audio, and
           intelligence information directly to theater and warfighter locations. The Global
           Broadcast Service operates as a broadcast distribution mechanism with a high
           bandwidth forward channel (to theater and warfighter assets) through the Ultra
           High Frequency Follow-On Satellite. The development of Global Broadcast
           Service was delayed because of problems with the development of the Internet
           protocol software. 1 The Air Force program manager corrected the problems and
           the component is ready for use.

           Information Screening and Delivery System. The Information Screening and
           Delivery System component provides the ability for the Submarine Single
           Messaging Solution to receive the submarine Internet Protocol broadcast through
           passive reception. The final release of the software will be available in
           August 2005.

           Main Router. The Main Router interfaces connect network and routing
           functions within the main network to the other data enclaves through in-line
           network encryption and to off-hull data networks. Router configurations are
           established during initial setup procedures and are not modified during normal
           operations.

           Medium-Rate, Channel Access Protocol. The Medium-Rate, Channel Access
           Protocol provides the necessary buffering to allow the network to operate over
           medium data rate paths. This protocol also allows for conversion among Internet
1
    A protocol is a set of rules that allows two devices to communicate.


                                                       26
protocol or Ethernet traffic and half-duplex information. The correct version of
the software was delayed in shipment, but has been received and included in the
conversion baseline.

Multifunctional Cryptographic System. The Multifunctional Cryptographic
System allows the CSRR to encrypt and decrypt information. The system is
interoperable with existing communication security systems and equipment, and it
consists of input/output interfaces and buffers, control functions, and
cryptographic devices. It accepts plain text analog voice, digital voice, and digital
data from various bandwidth systems and transmits/receives encrypted digital
signals. The CSRR configuration consists of many independent levels of security
for sensitive compartmented information, secret, and top secret enclaves.
Because the component was not developed as planned, the Navy decided to use
an alternative component and canceled the Multifunctional Cryptographic
System Program.
Multi-TADIL (Tactical Data Information Link) Capability. This capability
converts legacy tactical-data-link message traffic to and from the network-based
formats for transfer down-hull on the submarine. This component’s delayed
delivery was resolved before October 2004.

Q-70. The Q-70 main computer system will be the Submarine Common Display
System. The tactical workstation is an open system that provides the flexibility
and modularity necessary to support Exterior Communication System/Subsystem
program technology insertion. Together with component-based software, the
Q-70 allows many of the implementation decisions to be delayed as appropriate.
The review of the CSRR Program found no problems with this component.

Radio Frequency Distribution and Control System. The Radio Frequency
Distribution and Control System is an interface component between the radio
room and the antenna systems to provide off-hull communications. The system
consists of multiple units operating under the control of a central processor. The
required version was delayed in shipment, but is now included in the conversion
baseline.

Super High Frequency. The super high frequency is a circuit for a radio
frequency bandwidth in the DoD high bandwidth system that connects
submarines to the Ka Band Global Broadcast Service. It uses the submarine high
data rate antenna for extremely high frequency military and commercial
bandwidths. No problems were found with this circuit.

Submarine Low Frequency/Very Low Frequency Versa Module Europa-Bus
Receiver. The Submarine Low Frequency/Very Low Frequency Versa Module
Europa-Bus Receiver receives and processes multiple low frequency links
simultaneously. The Receiver detects errors and corrects decoding problems and
uses special anti-jam decoding and noise-processing techniques to support
extremely low frequency/very low frequency/low frequency communications.
The CSRR Program review found no problems with this component.




                                     27
Appendix D. Another Matter of Interest
     During the audit, we noted another matter of interest concerning the CSRR
     Program’s acquisition strategy.

Acquisition Strategy
     Although the CSRR Program began in the post-milestone B phase of the
     acquisition process, the program manager did not include technology
     development as a part of his acquisition strategy to identify the maturity level
     required for component and software design at the completion of each increment.
     The Interim Defense Acquisition Guidebook, which was used to explain DoD
     policy when the acquisition strategy was approved in 1992, stated that the
     acquisition strategy should identify the first block of evolutionary development or
     the initial deployment capability. DoD Instruction 5000.2 states that an
     acquisition program should develop a technology development strategy that
     provides the preliminary description of how the program will be divided into
     technology spirals and development increments before milestone B. The
     Instruction further states that after the program is approved to enter the system
     development and demonstration phase of the acquisition process at milestone B,
     the technology development strategy should be included as a part of the
     acquisition strategy. However, the milestone decision authority approved the
     acquisition strategy that the program manager prepared, although it did not
     include a comprehensive technology development strategy that described each
     increment. As a result, increment 0, which is under development as the baseline
     system for the Ohio-class, was not adequately defined for the milestone decision
     authority to make an informed decision about the status and maturity of the CSRR
     Program. Planning the maturity level of each increment as part of a technology
     development strategy could assist Navy acquisition decision makers in making
     the most cost-effective decisions when acquiring future CSRR technology.




                                         28
Appendix E. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Network and Information Integration)/DoD CIO
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
  Commander, Space and Naval Warfare Systems Command
      Program Executive Officer (Command, Control, Communications, Computers and
         Intelligence and Space)
         Program Manager, Common Submarine Radio Room
Naval Inspector General
Auditor General, Department of the Navy
Commander, Operational Test and Evaluation Force

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget



                                          29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        30
Department of the Navy Comments




                    31
32
33
34
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Technology Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Mary L. Ugone
John E. Meling
Rodney D. Britt
Celia J. Harrigan
Kevin B. Palmer
Roberta C. Dameron
Rebecca T. Crown-Schwartz
Anh Tran
Jacqueline N. Pugh
